        AUDIT REPORT


  U.S. Fish and Wildlife Service Federal
     Assistance Grants Administered
      by the State of West Virginia,
      Division of Natural Resources,
from July 1, 2002, through June 30, 2004




        Report No. R-GR-FWS-0005-2005
                         February 2006
        In accordance with the Department Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by May 8, 2006. Your response
should include information on actions taken or planned, including target dates and titles of
officials responsible for implementation. If you have any questions regarding this report, please
contact Mr. Tim Horsma, Audit Team Leader, at (916) 978-5668 or Mr. Chris Krasowski,
Federal Assistance Audit Coordinator at (703) 487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
                                              Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the FWS to provide Federal Assistance grants to states to enhance their
wildlife and sport fish programs. The Acts provide for FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the
state’s fish and game Division.

Objective, Scope, and Methodology
The objective of our audit was to determine whether costs incurred and claimed under Federal
Assistance grants to the Division were in accordance with the Acts and related regulations, FWS
guidelines, and the grant agreements; state hunting and fishing license revenues were solely for
fish and wildlife program activities; and program income was reported and used in accordance
with Federal regulations.

The audit work at the Division included total outlays of approximately $15.8 million on FWS
grants that were open during the State’s fiscal years (SFY) ended June 30, 2003 and 2004 (see
Appendix 1). We performed our audit at the Division’s headquarters in Charleston, West
Virginia. We also visited three district offices, three law enforcement offices (located at district
offices), three wildlife areas, one fish hatchery, and one boating access site (see Appendix 2).
The audit included steps to determine whether:

               ¾ The Division’s accounting system was adequate to account for grant receipts and
                 disbursements.
               ¾ The direct and indirect costs incurred and the in-kind contributions claimed by the
                 Division under Federal Assistance grants were necessary and reasonable,
                 allocable, accurate, and eligible for reimbursement.
               ¾ The Division’s hunting and fishing license certifications were based on official
                 State records, and procedures used to prepare those certifications were adequate
                 for eliminating duplicate license holders.
               ¾ The Division had an adequate system to account for and report license fee
                 revenues and disbursements and those revenues were used only for the Division’s
                 fish and wildlife programs.




1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively.



                                                         3
           ¾ Controls over real property and equipment acquired with Federal Assistance funds
             or license revenues were adequate to ensure compliance with program
             requirements.
           ¾ The Division complied with selected grant agreement provisions and
             requirements of the Acts.
           ¾ The State enacted assent legislation in compliance with the Acts.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the Division
to the grants, interviews with employees to ensure that personnel costs charged to the grants
were supportable, and a review of the Division’s use of hunting and fishing license revenues to
determine whether the revenues had been used solely for fish and wildlife program purposes.
We did not evaluate the economy, efficiency, or effectiveness of the Division’s operations.

Prior Audit Coverage

On December 12, 2000, we issued audit report No. 01-E-117 “Audit of U.S. Fish and Wildlife
Service Federal Aid Program Grants to the State of West Virginia, Division of Natural Resources
for Fiscal Years Ended June 30, 1997, and 1998.” The report identified a diversion of license
revenue funds to law enforcement and administrative expenses. The report also identified
deficiencies in the Division’s asset management system.

In February 2004 and 2005, Ernst & Young LLP issued Single Audit reports for the SFYs 2002
and 2003, respectively. The State’s Federal Assistance program, administered by the Division,
was not identified as a major program and, therefore, was not specifically reviewed.

We reviewed these reports and followed up on all significant findings related to the FWS Federal
Assistance grant funds and programs to determine whether they had been resolved. We
determined that the Division has not fully implemented prior audit recommendations related to
its asset management system. This finding is addressed in the Results of Audit section of this
report.




                                                4
                                    Results of Audit
We found that the Division was generally in compliance with applicable regulatory and grant
accounting requirements with respect to the following:

        ¾ The Division’s accounting system and related internal controls appear adequate to
          account for grant and license fee receipts and disbursements.
        ¾ Except for the issue discussed in finding A, direct and indirect costs claimed under
          the Federal Assistance grant agreements with FWS were adequately recorded,
          supported, and eligible for reimbursement.
        ¾ Hunting and fishing license certification processes were adequate and reliable.
        ¾ The State of West Virginia had adequate assent legislation in place that prohibited the
          use of license fees for any purposes other than the administration of the Division.

However, we identified the following issues regarding the Division’s administration of its
Federal Assistance programs:

        A.     Costs totaling $37,443 for contributions to the retirement system were questioned
               because temporary employees were not entitled to receive retirement benefits and
               the costs were not incurred.
        B.     Proceeds of at least $495,770 from the disposition of natural gas were not
               reported.
        C.     Program income of at least $137,214 was not reported.
        D.     Land acquired with Federal Assistance funds was used for unauthorized purposes.
        E.     The Division’s real property and equipment records were inaccurate and/or
               incomplete and property management procedures needed to be improved.

   A.        Questioned Costs - Retirement

We questioned $37,443 charged to 27 grants for retirement costs for temporary employees. The
Division did not actually incur these costs since temporary employees are not entitled to receive
retirement benefits. Title 50 CFR §80.15 and 80.16 state that (1) allowable costs are limited to
those which are necessary and reasonable for accomplishment of approved project purposes and
are in accordance with the cost principles of OMB Circular A-87 and (2) payments shall be
made for the Federal share of allowable costs incurred by the State in accomplishing approved
projects.

The Division’s cost accounting system computed fringe benefit costs on project labor based on a
predetermined fringe benefit rate that included a component for retirement. The Division
allowed supervisors to combine the hours of temporary and permanent staff on their monthly
work reports and the full fringe benefit rate was applied to this total. While the predetermined
rate was appropriate for permanent full time employees, it was not appropriate for temporary
staff because temporary employees are not entitled to receive retirement benefits. By not




                                                5
assigning each employee a specific employee identification number, the cost accounting system
was unable to apply the appropriate fringe benefit rates to temporary staff wages.

As a result, the Division charged $37,443 to 27 grants for retirement costs that were not incurred
(see Appendix 1).

       Recommendation
       We recommend that FWS:

       1. Resolve the questioned costs of $37,443 for retirement system contributions for
       temporary employees.

       2. Require the Division to establish procedures and controls to preclude charging grants
       for retirement costs for temporary employees.

       Division Response
       The Division concurred with the finding and the recommendation that it establish
       procedures and controls to preclude charging grants for retirement costs for temporary
       employees. The Division also stated that to address this finding, all temporary employees
       have been assigned a specific employee identification number and will be responsible for
       submitting a monthly work report identifying Federal Assistance projects, allowing the
       cost accounting system to apply the appropriate fringe benefit rates to temporary staff
       wages.

       OIG Comments
       Since FWS did not comment on the finding and recommendations, we consider them
       unresolved. FWS should address the findings and recommendations in the corrective
       action plan.

B.     Disposition of Real Property
The Division did not report proceeds totaling at least $495,770 from the disposition of real
property (natural gas) from lands acquired with Federal Assistance funds. The revenues
consisted of royalties generated under a gas lease, initially established in 1959, on the Panther
State Forest Wildlife Management Area (WMA). Lands comprising Panther State Forest WMA
were acquired in 1939 and 1940 with Federal Assistance funds under grant No. W-4-L (Federal
participation in the acquisition cost was 75 percent).

The regulations (43 CFR § 12.71(c) (2)) require that when a grantee sells real property that was
acquired with Federal Assistance funds, it must compensate the awarding agency. The
regulations further state:




                                                6
       “The amount due to the awarding agency will be calculated by applying the awarding
       agency’s percentage of participation in the cost of the original purchase to the proceeds
       of the sale after deduction of any actual and reasonable selling and fix-up expenses.”

Based on the Federal participation rate of 75 percent on these acquisitions, FWS is due
compensation of $371,827 (75 percent of $495,770). While the FWS Manual (522 FW 6.7D)
refers to gas as an interest in real property that may be separated from the land by sale, lease,
easement, or other method, it also states that revenue from the sale, lease, or easement of gas, oil,
and minerals may be considered program income. [FWS needs to determine the proper
treatment of these revenues.]

Division officials stated that they believed that is was appropriate to retain gas royalty revenue to
fund the administration of the Division.

       Recommendations
       We recommend that FWS:

           1. Determine whether royalties totaling $495,770 should be treated as program
           income or as proceeds from sale of real property, and proceed accordingly.

           2. Instruct the Division to develop and implement policies and procedures for
           identifying and reporting the revenues received from gas leases on lands acquired or
           managed with Federal Assistance funds.


       Division Response
       The Division partially concurred with the finding acknowledging that when a grantee
       sells real property acquired with Federal funds, it must compensate the awarding agency.
       The Division also agreed that the amount due to the awarding agency be calculated by
       applying the awarding agency percentage of participation in the cost of the original
       purchase to the proceeds of the sale.

       The Division, however, disagreed with the audit reports assessment of the value realized
       from the disposition of real property. The disagreement was based on the number of
       natural gas wells in current operation on the portion of the wildlife management area
       acquired with Federal Assistance funds. The Division recommended that its staff work
       with FWS to develop and implement a policy and procedure for identifying and reporting
       the revenue received from activities on lands acquired with Federal Assistance funds.

       OIG Comments
       We acknowledge that during our review, the Division had not developed data on the
       location and production of gas wells on lands acquired with Federal Assistance or State
       funds. We determined, however, that in 1959 when the lease was established, all land on



                                                  7
       the wildlife management area had been acquired with Federal Assistance funds.
       Accordingly, we believe that FWS should determine the extent of royalties that should be
       treated as program income or as proceeds from the sale of real property.

       Since FWS did not comment on the finding and recommendations, we consider them
       unresolved. FWS should address the findings and recommendations in the corrective
       action plan.


C.    Unreported Program Income

The Division did not report program income on grant Nos. W-41-D-40 and W-41-D-41 (District
Wildlife Management and Investigations) totaling $137,214 that was generated from campsite
rentals, timber sales, and land leases on wildlife management areas that were maintained, and in
some instances acquired, with Federal Assistance funds.

The regulations (43 CFR § 12.65(b)) state that program income is gross income received by a
grantee directly generated by a grant supported activity or earned only as a result of the grant
agreement during the grant period. Also, 43 CFR § 12.65(a) states that program income includes
income from services performed and the sale of commodities. According to 43 CFR § 12.65(g),
program income should be deducted from total grant costs to determine net costs on which the
Federal share is based or, with FWS approval, may be added to the project funds to further
eligible program projects or used to meet the cost sharing or matching requirement of the grant
agreement. In addition, the grant agreement should identify the estimated amounts, sources, and
method of accounting for program income.

The March 2004 Director’s Order 168, Program Income from Federal Assistance Grants,
provides guidance on identifying activities that may generate program income. Prior to the
Director’s Order 168, FWS Region 5 had instructed the Division that revenues generated on
lands acquired with Federal Assistance grant funds should be reported as program income.
Director’s Order 168 clarified FWS policy, adding that grantees should also report revenues
generated on lands managed with Federal Assistance funds as program income.

According to Division staff, revenues that may be considered program income are recorded in
Fund 3227, Game and Fish Recreation fund. Based on our review, we determined that at least
$137,214 of the $1,214,427 in Fund 3227, primarily from campsite rentals, timber sales, and land
leases, should have been reported as program income on the Financial Status Reports for grant
Nos. W-41-D-40 and W-41-D-41.

According to the regulations (43 CFR § 12.65 (g)(1)), “Program income which the grantee did
not anticipate at the time of the award shall be used to reduce the Federal agency and grantee
contributions rather than to increase the funds committed to the project.” Since the program
income was not reported, FWS could not ensure that the income was used in accordance with the
regulations.




                                               8
       Recommendations
       We recommend that FWS:

       1. Resolve the unreported program income of $137,214.

       2. Instruct the Division to develop and implement policies and procedures to ensure that
       all program income is identified and reported.

       Division Response
       The Division did not concur with the finding, and stated that it will work with FWS to
       clarify the types of revenue that are required to be reported as program income. The
       Division stated that it disagreed with the interpretation of Director’s Order 168, “Program
       Income form Federal Assistance Grants” that revenue generating from activities on land
       wholly owned by the state, but managed using Federal Assistance grant funds, must be
       reported as program income.

       OIG Comments
       As the Division had not reported revenue received as program income during the 2-year
       period of our review, we believe that the Division should work with FWS to develop and
       implement policies and procedures to clarify the types of revenue that are required to be
       reported as program income.

       Since FWS did not comment on the finding and recommendations, we consider them
       unresolved. FWS should address the findings and recommendations in the corrective
       action plan.


D. Conversion of Land Acquired with Federal Assistance Funds

The Division allowed its forestry and parks units to develop and use approximately 26 acres on
the Panther State Forest WMA for recreation facilities. These lands were acquired with Federal
Assistance funds in 1939 and 1940 to be maintained as a wildlife refuge. The recreation
facilities developed include two swimming pools, a bathhouse, picnic areas, campgrounds, and
group camp facilities. The swimming pool complex and group camp facilities were developed in
1949 and 1979, respectively.

Federal regulations prohibit the use of real property purchased with Federal Assistance funds for
purposes other than those for which they were acquired. Specifically, 43 CFR §12.71(b) states,
“Except as otherwise provided by Federal statutes, real property will be used for the originally
authorized purposes as long as needed for those purposes, and the grantee or subgrantee shall not
dispose of or encumber its title or other interests.” In addition, 50 CFR § 80.14(b) states:




                                                9
       “Real property acquired or constructed with Federal Aid funds must continue to
       serve the purpose for which acquired or constructed. When such property passes
       from management control of the fish and wildlife agency, the control must be
       fully restored to the State fish and wildlife agency or the real property must be
       replaced using non-federal aid funds. Replacement property must be of equal
       value at current market prices and with equal benefits as the original property.
       The State may have a reasonable time, up to three years from the date of
       notification by the regional director, to acquire replacement property before
       becoming ineligible [to participate in the Sport Fish and Wildlife Restoration
       Programs].”

The Division did not have sufficient policies and procedures in place to preclude conversion of
lands acquired with Federal Assistance funds.

       Recommendations
       We recommend that FWS:

       1. Resolve the issue on the conversion of the 26 acres of land acquired with Federal
       Assistance funds.

       2. Require the Division to establish and implement policies and procedures to preclude
       the conversion of lands acquired with Federal Assistance funds without FWS approval.

       Division Response
       The Division concurred with the finding that the development of recreation facilities on
       lands acquired with Federal Assistance funds is a diversion. The Division disagreed,
       however, with the statement that it did not have sufficient policies and procedures in
       place to preclude conversion of lands acquired with Federal Assistance funds.

       OIG Comments
       We determined that incomplete land record data relating to acquisition funding source
       and insufficient policy contributed to the land diversion identified. We therefore believe
       that the Division should establish and implement policies and procedures to preclude the
       conversion of lands acquired with Federal Assistance funds without FWS approval.

       Since FWS did not comment on the finding and recommendations, we consider them
       unresolved. FWS should address the finding and recommendations in the corrective
       action plan.




                                               10
E.   Property Management
The regulations (50 CFR § 80.19) require the states to maintain current and complete property
records in accordance with requirements contained in the Service Manual and OMB Circular A-
102. According to 50 CFR § 80.18 and the FWS Manual (522 FW 1.16), the states are
responsible for the accountability and control of all assets to assure that they are used for the
purpose for which they were acquired throughout their useful life. We found that the Division’s
real property and equipment records were incomplete and/or inaccurate and that the Division’s
property management procedures needed improvement.

         Real Property. The Division’s land records were incomplete and did not identify the
funding source for the acquisition. Specifically, the Division could not provide a complete list of
lands purchased and capital improvements made with Federal Assistance funds or license
revenues because the inventory records did not identify the funding source. The Division
provided us with a list of four land purchases (all wildlife management areas), which had been
identified by the previous auditors as lands acquired with Federal Assistance funds. In contrast,
FWS provided us with a list of 11 land purchases (6 wildlife management areas, 4 boating access
sites, and 1 lake) made with Federal Assistance funds. The Division was also unable to provide
us with a listing of lands purchased with license revenues.

We concluded that the Division has not developed adequate policies and procedures to ensure
that its records are adequate for managing its real property effectively. These records should
identify the funding source, location, acreage and conveyances, or encumbrances. As a result,
the Division did not have effective control over its real property to ensure that lands acquired
with Federal Assistance funds and license revenues were used solely for their intended purposes.

        Personal Property. The Division’s personal property inventory listing contained
inaccurate and incomplete data. During our site visits to six locations, we found that 6 of the 55
items in our sample were not at the locations shown on the inventory. The Procurement Office
had approved the transfers of the items, but the inventory listing had not been updated to show
the new locations. In addition, we found two items at the sites that were not on the inventory
listing. According to Division staff, a physical inventory had not been performed in over 3 years
but annual Inventory Certifications had been submitted to the Purchasing Division without
adequate verification.

The State’s Inventory Management Manual (section 3.17) requires that all agencies take a
physical inventory by June 30 once every 3 years. Section 3.18 of the Manual further requires
that all agencies complete an annual Inventory Certification Cover Sheet and submit it to the
Purchasing Division by July 15. Agencies are required to certify the date of the last physical
inventory, that all assets under their jurisdiction with an acquisition cost of $1,000 or more were
entered into the West Virginia Financial Information System Fixed Asset System, and that all
obsolete assets under their jurisdiction were retired in accordance with policy, procedures, and
guidelines. In completing annual Inventory Certification forms, the Division compared
information on the property inventories to recent acquisitions but not to all equipment records for
equipment that was transferred or retired.




                                                11
We concluded that the Division did not have effective control over its personal property to
ensure that property acquired with Federal Assistance funds or license revenues was adequately
safeguarded and used in accordance with applicable requirements.

       Recommendations
       We recommend that FWS:

       1. Require the Division to establish complete and accurate records for lands acquired
       with Federal Assistance funds and license revenues.

       2. Require the Division to establish policies and procedures for maintaining land records
       that include source of funding, year of acquisition, acreage, location and conveyances or
       encumbrances.

       3. Require the Division to develop procedures to ensure that personal property inventory
       records are adjusted promptly when items are transferred to other locations.

       4. Require the Division to establish controls to ensure compliance with State Inventory
       Management Manual requirements for physical inventories of personal property and
       adjustments to inventory records.

       Division Response
       The Division concurred with the finding, and stated that its land records were incomplete
       and did not identify the funding source for land acquisitions. The Division also stated
       that it would work with FWS to ensure that all areas acquired with Federal Assistance
       funds are identified and that funding information is captured on land purchases. The
       Division also agreed to modify its procedures and establish a process to ensure that it
       conducts a physical inventory every three years and adjustments are made to inventory
       records.

       OIG Comments
       Since FWS did not comment on the finding and recommendations, we consider them
       unresolved. FWS should address the findings and recommendations in the corrective
       action plan.




                                              12
                                                          Appendix 1
                                                          Page 1 of 2

   WEST VIRGINIA DIVISION OF NATURAL RESOURCES
     FINANCIAL SUMMARY OF REVIEW COVERAGE
          JULY 1, 2002 THROUGH JUNE 30, 2004

              Grant                          Questioned   Federal
Grant No.    Amount      Total Outlays [1]     Costs       Share
F-11-R-41    $161,000           $121,318
F-11-R-42     140,000              128,060         $23       $17
F-11-R-43     144,000              112,651          92        69
F-20-D-29     247,000              128,994         946       710
F-20-D-30     263,700              193,472           5         4
F-24-R-21      20,595               14,959
F-24-R-22      21,610               29,049         312       234
F-24-R-23      22,710                7,096          35        26
F-31-D-13     510,000              398,002
F-31-D-14     476,000              402,565        2,863     2,147
F-31-D-15     423,000              429,477        1,631     1,223
F-37-D-9     1,750,000          1,890,696         3,946     2,960
F-37-D-10    1,750,000          2,033,958         3,702     2,777
F-40-D-5      145,000              118,695
F-40-D-6      145,000               94,423         487       365
F-40-D-7      185,000              175,617         837       628
F-41-R-1      150,000               30,538
F-41-R-2      134,000               73,393         541       406
F-41-R-3      136,251               63,388         263       197
F-42-R-1      100,000               29,099
F-42-R-2       93,500               45,485          90        67
F-42-R-3       93,500               54,747         247       185
F-43-R-1      110,000               69,682
F-43-R-2       92,500               68,434          97        73
F-43-R-3       93,200               43,638         130        98




                              13
                                                                                                   Appendix 1
                                                                                                   Page 2 of 2


            WEST VIRGINIA DIVISION OF NATURAL RESOURCES
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                   JULY 1, 2002 THROUGH JUNE 30, 2004

                                    Grant                                 Questioned           Federal
          Grant No.                Amount          Total Outlays    [1]     Costs               Share
          FW-2-C-43                   510,000                339,139
          FW-2-C-44                   325,000                345,767
          FW-4-T-34                   303,638                364,807             2,431            1,823
          FW-4-T-35                   353,920                351,587             2,665            1,998
          FW-6-T-23                   506,529                450,876               532              399
          FW-6-T-24                   471,908                458,087               619              464
          W-41-D-40                 2,545,522              2,120,827             7,234            5,425
          W-41-D-41                 2,643,338              2,266,120             5,930            4,448
          W-43-S-31                   498,032                339,418
          W-43-S-32                   611,697                375,519                  5                4
          W-48-R-19                 1,077,000                900,886             1,298              974
          W-48-R-20                 1,093,700                708,745               482              361


          Totals                 $18,347,850            $15,779,214           $37,443          $28,082

[1] The amounts shown include the Division’s incurred costs and the in-kind contributions during the audit period.




                                                        14
                                                       Appendix 2


WEST VIRGINIA DIVISION OF NATURAL RESOURCES
                SITES VISITED

                       Headquarters
       Division of Natural Resources, Charleston, WV


                     District Offices
                  District 3 French Creek
             District 5 Point Pleasant (Wildlife)
          District 5 St. Albans (Law Enforcement)
                   District 6 Parkersburg


                      Wildlife Areas
                      Chief Cornstock
                         McClintic
                    Panther State Forest


                       Fish Hatchery
                        Apple Grove


                    Boating Access Site
                       Rollins Lake




                             15
                                                                               Appendix 3

     WEST VIRGINIA DIVISION OF NATURAL RESOURCES
                         STATUS OF AUDIT FINDINGS
                          AND RECOMMENDATIONS

Recommendations              Status                          Action Required

A.1, A.2             Finding Unresolved and    Provide a corrective action plan that
B.1, B.2             Recommendation Not        identifies the actions taken or planned to
C.1, C.2             Implemented               resolve the finding and implement the
D.1, D.2                                       recommendation, as well as the basis for any
E.1, E.2, E.3, E.4                             disagreement with the recommendation. The
                                               plan should also include the target date and
                                               the official responsible for implementation of
                                               the recommendation. If the recommendation
                                               is not implemented at the end of 90 days
                                               (after May 8, 2006), it will be referred to the
                                               Assistant Secretary for Policy, Management
                                               and Budget for resolution and/or tracking of
                                               implementation.




                                          16
